Report No. D-2011-RAM-008              December 07, 2010




                 American Recovery and
     Reinvestment Act--Execution of Aberdeen Proving
   Ground Projects to Replace Boilers and Repair Interior
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unite at (703) 604-8937 (DSN) 664-8937 of fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
APG                           Aberdeen Proving Ground
DoD OIG                       Department of Defense Office of Inspector General
                                    INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRGINIA 22202-4704 

                                                                                bEC 0 7 2010


MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               COMMANDING GENERAL, U.S. ARMY INSTALLATION
                MANAGEMENT COMMAND
               GARRISON COMMANDER, ABERDEEN PROVING
                GROUND


SUBJECT: 	 American Recovery and Reinvestment Act-Execution of Aberdeen Proving Ground
           Projects to Replace Boilers and Repair Interior
           (Repolt No. D-2011-RAM-008)


We are providing this report for your information and use. We performed this audit in response to
the requirements of Public Law 111-5, "American Recovery and Reinvestment Act of2009,"
February 17,2009. We determined that the projects to "Repair Interior of APG 30" and "Replace
3 Boilers in E1574" were justified and met the Recovery Act goals regarding accountability and
transparency. We considered management's response to a discussion draft of the repOlt when
preparing the final report. No additional comments are required.

We appreciate the comtesies extended to the staff. Please direct questions to MI'. Donald A.
Bloomer at (703) 604-8863 (DSN 664-8863).


                                       IJ-~~-
                                         Alice F. Carey
                                         Assistant Inspector General
                                         Readiness, Operations, and SUppOlt
Report No. D-2011-RAM-008 (Project No. D2009-D000LG-0180.000)            December 07, 2010

              Results in Brief: American Recovery and
              Reinvestment Act-Execution of Aberdeen
              Proving Ground Projects to Replace Boilers
              and Repair Interior
                                                       interior and boiler projects in accordance with
What We Did                                            Recovery Act requirements.
Our overall objective was to determine whether
DoD implemented Public Law 111-5,                      Aberdeen Proving Ground Department of Public
“American Recovery and Reinvestment Act of             Works personnel did not initially provide
2009,” February 17, 2009, by meeting the               adequate justification and support for project
requirements in the Recovery Act, the Office of        plans and contractor registration for the boiler
Management and Budget                                  project; however, in response to issues we
Memorandum M-09-15, “Updated                           identified during this audit, public works
Implementing Guidance for the American and             personnel initiated corrective action and
Reinvestment Act of 2009,” April 3, 2009, and          adequately justified the project. In addition,
subsequent related guidance. We assessed               contracting personnel provided documentation
Aberdeen Proving Ground’s implementation of            supporting contractor registration.
plans for two projects. Specifically, we
reviewed the projects’ justification and               What We Recommend
requirements.                                          This report contains no recommendations.

In July 2009, the DoD OIG and the U.S. Army            Management Comments
Audit Agency conducted an audit of 6 projects          The Garrison Commander, Aberdeen Proving
at Aberdeen Proving Ground. The Army funded            Ground, has taken action to address the
5 of the projects we reviewed, and the                 concerns we presented in the discussion draft
6th project was funded by the Defense-wide             report. We do not require any formal
Defense Health Program. This report addresses          comments.
2 of the 5 Army-funded projects,
“Replace 3 Boilers in E1574” and “Repair
Interior of APG 30.” We will address a third
project in a separate report. The Army Audit
Agency issued Audit Report
No. A-2010-0127-FFE, “American Recovery
and Reinvestment Act of 2009, Aberdeen
Proving Ground, Maryland,” 1 July 2010, on the
three projects that it evaluated.

What We Found
Aberdeen Proving Ground Department of Public
Works personnel adequately justified its plans
for the interior project. Additionally, Aberdeen
Proving Ground personnel implemented the


                                                   i
Table of Contents

Results in Brief                                                             i


Introduction                                                                 1


       Objective                                                             1

       Recovery Act Background                                               1


Aberdeen Proving Ground Implemented Project Plans in Accordance With the 

Recovery Act                                                                 3


       Planning: Projects Adequately Justified                               3

       Execution: Projects Implemented in Accordance With Requirements       3


Appendices

       A. Scope and Methodology                                              5

       B. Recovery Act Criteria and Guidance                                 8

Introduction
Objective
Our overall objective was to determine whether DoD implemented Public Law 111-5,
“American Recovery and Reinvestment Act of 2009,” February 17, 2009, (Recovery Act)
by meeting the requirements in the Recovery Act, Office of Management and Budget
Memorandum M-09-15, “Updated Implementing Guidance for the American Recovery
and Reinvestment Act of 2009,” April 3, 2009, and subsequent related guidance. We
assessed Aberdeen Proving Ground’s (APG’s) implementation of plans for two projects.
Specifically, we reviewed justification and requirements for projects “Replace 3 Boilers
in E1574” (boiler project) and “Repair Interior of APG 30” (interior project). See
Appendix A for a discussion of our scope and methodology.

Recovery Act Background
In passing Public Law 111-5, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most affected by the recession;
provide investments to increase economic efficiency through technological advances in
science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public how, when, and where tax dollars
were being spent. Further, the Recovery Act stated that the President and the heads of
Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

Office of Management and Budget Memorandum M-09-15 promulgated an updated set
of Government-wide requirements and guidelines that Federal agencies must implement
or prepare to effectively manage activities under the Recovery Act. Under this guidance,
Federal agencies are required to enhance accountability by:

      awarding and distributing funds in a prompt, fair, and reasonable manner;
      ensuring that the recipients and uses of all funds are transparent to the public and
       the public benefits of these funds are reported clearly, accurately, and in a timely
       manner;
      using funds for authorized purposes and mitigating the potential for fraud, waste,
       error, and abuse;
      ensuring that projects funded under this Act avoid unnecessary delays and cost
       overruns; and
      achieving program goals, including specific program outcomes, and improved
       results on broader economic indicators.




                                             1


DoD received approximately $6.8 billion1 in Recovery Act funds for projects that support
the purposes of the Act. The Department of the Army received $2.1 billion in Recovery
Act funds for Operation and Maintenance; Military Construction; and Research,
Development, Test, and Evaluation. See the table below for the specific amounts
allocated to each appropriation.

                  Department of Army Recovery Act Appropriations
                        Appropriations                  Amount (millions)
    Operation and Maintenance                                 $1,839
    Military Construction                                        230
    Research, Development, Test and Evaluation                    75
     Total                                                    $2,144

Of the $2.1 billion appropriated to Department of the Army projects, the Army allocated
$44.4 million (Operations and Maintenance) to projects located at APG. Together, the
Department of Defense Office of the Inspector General (DoD OIG) and Army Audit
Agency reviewed five projects totaling $15.9 million funded through the Army. See
Appendix A, for the specific cost estimates for each of the five projects. This report
addresses the boiler and interior projects at APG, which totaled $3.6 million in costs.
The DoD OIG will issue a separate report on project “Modernize 3rd Floor Utilities-
Center for Health Promotion and Preventive Medicine,2” funded through the Defense-
wide Defense Health Program. The Army Audit Agency will issue a separate report on
the child development center, barracks, and Building 316 projects.

APG is home to 9 commands and supports 70 tenants, as well as 20 satellite activities and
17 private activities. The installation provides facilities to perform research,
development, testing, and evaluation of Army materiel. It also supports a wide variety of
training, including mechanical maintenance, health promotion and preventive medicine,
chemical and biological defense, chemical casualty care, and chemical demilitarization.
In addition, APG hosts National Guard and U.S. Army Reserve operations and training.




1
 The $6.8 billion does not include $4.6 billion for the U.S. Army Corps of Engineer or $555 million for the
Homeowners Assistance Fund.
2
 The U.S. Army Center for Health Promotion and Preventive Medicine is currently known as the
U.S. Army Public Health Command (Provisional)


                                                    2

APG Implemented Project Plans in
Accordance With the Recovery Act
APG personnel adequately justified the Recovery Act project “Repair Interior of
APG 30.” APG personnel initially omitted adequate justification and support for project
plans and for contractor registration for the Recovery Act project to replace the boilers.
APG Department of Public Works and contacting personnel subsequently prepared and
provided justification to support the project plans and provided contractor registration in
response to a discussion draft of this report. As a result, the Recovery Act project
“Repair Interior of APG 30” and “Replace 3 Boilers in E1574” were adequately justified;
APG personnel implemented the plans for both projects in accordance with Recovery Act
requirements.

Planning: Projects Adequately Justified
APG appropriately planned the interior project. We determined the interior project was
justified based on information contained on Army Form 4283 (Form 4283), “Facilities
Engineering Work Request.” Form 4283 included information on why the interior of
building APG 30 needed repairs. However, the plans for the boiler project initially
omitted adequate justification. In response to a discussion draft of this report,
Department of Public Works personnel modified the work request to include adequate
justification.

The initial justification provided for the boiler project on Form 4283 was “replace three
boilers.” The project requestor, a Department of Public Works official at APG, failed to
detail why the boilers needed replacement. According to the U.S. Army Field Artillery
Center and Fort Sill Supplement 1 to AR 420-17, the description and justification of the
“work to be accomplished” segment on Form 4283 must be concise yet fully explain all
work required and must justify why the work is necessary. In our discussions with the
APG Project Manager, he stated that the project did not require written justification
because it was part of the annual work plan. Although the Project Manager was able to
explain to us why the boilers needed replacing, he did not officially document his
reasoning in writing. Since our discussions on this issue with APG personnel,
Department of Public Works personnel modified the Form 4283 by describing the failing
condition of one boiler and the need to replace it and the connecting pipe to provide heat
for the facility. APG improved transparency of expenditures by providing adequate
written justification.

Execution: Projects Implemented in Accordance With
Requirements
According to Federal Acquisition Regulation Subpart 4.11 “Central Contractor
Registration,” Section 4.1102, “prospective contractors shall be registered in the Central
Contractor Registration database prior to award of a contract agreement.” Further,
Section 4.1103 states that a “contracting officer, before awarding a contract or agreement,



                                             3


shall verify that the prospective contractor is registered in the Central Contractor
Registration database.”

APG personnel adequately implemented the interior and boiler projects in accordance
with Recovery Act requirements. Specifically, APG contract personnel posted the
solicitations for both projects to the Federal Business Opportunities Web site and
included “Recovery Act” in the title of the projects. Also, the APG contracting office
included applicable Federal Acquisition Regulation clauses in the contracting documents
and verified contractor registration in the Central Contractor Registration database as
required by the Recovery Act.3

The boiler project initially lacked documentation from the Central Contractor
Registration database verifying that six of the seven contractors listed as competitors for
the project were Government-approved prior to contract agreement or award. The
contracting officer maintained that APG verified the contractors were in the Central
Contractor Registration database, but was unable to retrieve historical documentation to
support this claim. In response to our discussion draft report, the contracting officer
provided documentation from the Central Contractor Registration database to support
registration of the six contractors prior to contract agreement or award. Although the
Federal Acquisition Regulation does not require documentation, APG can further
enhance transparency by documenting that contractors were registered in the Central
Contractor Registration database prior to awarding the contract.




3
 The interior project, “Repair Interior of APG 30,” was in pre-solicitation phase during our review.
Therefore, we could not review Federal Acquisition Regulation clauses and contractor registration.


                                                     4


Appendix A. Scope and Methodology
We conducted this audit from July 2009 to December 2010 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence providing a reasonable basis
for our conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our conclusions based on our audit objectives.

The Army Audit Agency and the DoD OIG provided joint oversight of six projects at
APG to determine whether they complied with Recovery Act, Office of Management and
Budget Memorandum M-09-15, and subsequent related requirements. The Department
of the Army received $2.1 billion in Recovery Act funds for Operations and
Maintenance; Military Construction; and Research, Development, Test and Evaluation.
Of the $2.1 billion, the Army allocated $44.4 million to projects located at APG. The
Army funded five of the projects reviewed. These projects made up $15.9 million of the
$44.4 million allocated to APG (see table below). One project, “Modernize 3rd Floor
Utilities-Center for Health Promotion and Preventive Medicine,” was funded through the
Defense-wide Defense Health Program.

   Five Projects Assessed at Aberdeen Proving Ground and Funded by the Army
                  Project Title                      Cost Estimate         Assigned
                                                        ($000)              Agency
 Replace 3 Boilers in E1574                             $2,000             DoD OIG
 Repair Interior of APG 30                                1,600            DoD OIG
  Total Cost of DoD OIG Projects                        $3,600
 Repair Child Development Center Facility,               1,800            Army Audit
 2485- Repair Roof, Sprinkler, Floor,                                      Agency
 Mechanical System
 Barracks E4229 Replace Chillers, Renovate                1,100           Army Audit
 Lobby and Laundry Room, and Replace                                       Agency
 Windows
 Repair Building 316 Electrical, Heating,                 9,400           Army Audit
 Ventilating, Air Conditioning, Plumbing,                                  Agency
 Finishes, Doors, and Windows
  Total Cost of Army Audit Agency Projects              $12,300
  Total                                                 $15,900

The Army Audit Agency reviewed three projects, and the DoD OIG reviewed three
projects. The Army Audit Agency reported on its three projects in its Audit Report
No. A-2010-0127-FFE, “American Recovery and Reinvestment Act of 2009, Aberdeen
Proving Ground, Maryland,” July 1, 2010.

This report covers two projects that DoD OIG reviewed, “Replace 3 Boilers in E1574”
and “Repair Interior of APG 30.” The boiler and interior projects had cost estimates of


                                            5
$2.0 million and $1.6 million, respectively. We will cover the medical project we
reviewed, with a cost estimate of $15.8 million, in a separate DoD OIG report.

During our review of the two projects, we did not review the Army-wide process for
selecting the projects. We interviewed resource management, contracting, business
operations and integrations, and Department of Public Works personnel at APG. We
obtained supporting documentation, including Department of the Army Form 4283 work
requests, justifications, contract documents, and project funding reports. Additionally,
we visited the project sites to better understand the work planned or required to
implement each project.

Use of Computer-Processed Data
We relied on computer-processed data from the Project Priority System, Program Budget
and Accounting System, Installation Management Agency Online, Central Contractor
Registration, Project Development Database, Federal Business Opportunities Web site,
and Excluded Parties List System. For each project, we used the Project Priority System
to generate Department of the Army Form 4283, “Facilities Engineering Work Request,”
and DoD Form 1391, “Military Construction Project Data,” depending on the cost of the
project. These forms document the justification for each project. Funds that the DoD
receives are issued and controlled using the Program Budget and Accounting System.
The system indicates the funds that have been sent to APG. APG uses the system to
obtain the funding authorization documents for the installation. Installation Management
Agency Online is a U.S. Army financial system which contains information on the
amount of money committed to the various projects at APG. Central Contractor
Registration is the primary registrant database for the U.S. Federal Government, and it
collects, validates, stores, and disseminates data in support of agency acquisition
missions. APG’s contracting office uses its Project Development Database to create
contract files for the various projects funded under the Recovery Act.

Federal Business Opportunities Web site is the single government point of entry for
Federal government procurement opportunities over $25,000. The Excluded Parties List
System provides a single comprehensive list of individuals and firms excluded by Federal
government agencies from receiving Federal contracts or federally-approved subcontracts
and from certain types of Federal financial and nonfinancial assistance and benefits. We
compared data generated by the various systems with data in the DoD Expenditure Plans,
funding authorization documents, and contracting documentation to support the audit
conclusions. We assessed the data to determine if it was reliable, complete, accurate, and
competent to answer the audit objectives. We determined that the data were sufficiently
reliable for the purpose of reviewing the justification and requirements for the
2 American Recovery and Reinvestment Act projects.

Use of Technical Assistance
The Quantitative Methods and Analysis Division of the DoD OIG did not use classical
statistical sampling techniques that would permit generalizing results to the total
population. We used predictive analytic techniques to select some of the projects.
DoD OIG and Army Audit Agency’s management selected APG as a preliminary test site


                                            6


to jointly test the audit guide. Team members selected projects from an extract of
Operations and Maintenance and Military Construction projects for APG identified in the
DoD Agency plans, May 15, 2009. The team selected a cross section of project
categories and dollar values to review.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                           7


Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list):

   		 U.S. House of Representatives Conference Committee Report 111-16, “Making
       Supplemental Appropriations for Job Preservation and Creation, Infrastructure
       Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
       State and Local Fiscal Stabilization for the Fiscal Year Ending
       September 30, 2009, and for Other Purposes,” February 12, 2009;

   		 Public Law 111-5, Recovery Act of 2009, February 17, 2009. The Act
       appropriates funds to various U.S. Departments, including the Department of the
       Army;
   		 Federal Acquisition Regulation, reissued March 2005. The Federal Acquisition
       Regulation codifies uniform policies for acquisition of supplies and services by
       executive agencies;
   		 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
       Recovery and Reinvestment Act of 2009,” February 18, 2009;

   		 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
       Reinvestment Act of 2009 Appropriations,” February 25, 2009;

   		 White House Memorandum, “Government Contracting,” March 4, 2009;

   		 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
       Funds,” March 20, 2009; and

   		 OMB Memorandum M-09-15, “Updated Implementing Guidance for the 

       American Recovery and Reinvestment Act of 2009,” April 3, 2009.*





   Note
   *
     Document provides Government-wide guidance for carrying out programs and activities enacted in
   the American Recovery and Reinvestment Act of 2009. The guidance states that the President’s
   commitment is to ensure that public funds are expended responsibly and in a transparent manner to
   further job creation, economic recovery, and other purposes of the Recovery Act.




                                                 8


